OIG Audit Report GR-80-06-003

Stop Violence Against Women Formula Grant Awarded to the 
Arkansas Department of Finance and Administration

Audit Report GR-80-06-003


June 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, completed an audit of STOP Violence Against Women (SVAW) formula grant, number 2003‑WF‑BX‑0176, awarded by the U.S. Department of Justice, Office of Justice Programs, Office on Violence Against Women, to the Arkansas Department of Finance and Administration (ADFA) in Little Rock, Arkansas.
	As of April 1, 2003, the ADFA was awarded a total of $1,523,000.  The ADFA plans to prevent and reduce violence against women in Arkansas by assisting those at the local level to employ innovative techniques and strategies that will yield long-term and far-reaching improvements in the fields of victim services, prosecution, and law enforcement. 
The purpose of the SVAW grant program is to encourage the development and implementation of effective, victim-centered law enforcement, prosecution, and court strategies to address violent crimes against women and the development and enhancement of victim services in cases involving crimes against women.  The program envisions a partnership among law enforcement, prosecution, courts, and victim advocacy organizations to enhance victim safety and hold offenders accountable for their crimes against women.
We reviewed the ADFAs compliance with essential grant conditions and found weaknesses in three of the seven areas tested — reporting, budget management and control, and grant expenditures.  No weaknesses were found in drawdowns, matching program costs, or monitoring of subrecipients.  We also reviewed grant achievements, but express no opinion due to data limitations.  Our report contains four recommendations that are discussed in detail in the Findings and Recommendations section.  Our audit objectives, scope, and methodology appear in Appendix I.  
As a result of the deficiencies found, we question costs totaling $94,731 and identified $68,535 as funds put to better use.1   We discussed the results of our audit with the ADFA officials and included their comments in the report, as applicable.  We found:

three Financial Status Reports were inaccurate;
the ADFA did not submit annual Program Reports; 
$94,731 in unsupported costs were charged to the grant; and
$68,535 in funds put to better use.




Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs and funds put to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for the definitions of questioned costs and funds put to better use.